No.

IN THE
SUPREME COURT OF THE UNITED STATES

JEAN LEONARD TEGANYA,
Petitioner,
v.
UNITED STATES,
Respondent.
CERTIFICATE OF SERVICE
I, Christine DeMaso, hereby certify that on this 21st day of September 2021,
I served the Petition for Writ of Certiorari, Motion to Proceed in Forma Pauperis,
Affidavit of Timely Filing by Mail, and this Certificate on all parties to be served.
In accordance with Rule 29.3 of the Supreme Court Rules, said service has
been made by sending one copy by first class mail, postage pre-paid to:
Alexia R. De Vincentis
Assistant United States Attorney
U.S. Attorney’s Office
1 Courthouse Way, Suite 9200
Boston MA 02210

Brian H. Fletcher
Acting Solicitor General
Office of the Solicitor General
950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001

/s/ Christine DeMaso

Christine DeMaso
Assistant Federal Public Defender
Federal Public Defender Office
51 Sleeper Street, 5th Floor
Boston, MA 02210
(617) 223-8061
September 21, 2021

